March 27, 2001

ALFRED INIGUEZ
ACTING VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:	 Audit Report - Review of Safety and Health Inspections in the Pacific Area
          (Report Number LC-AR-01-004)

This report presents the results of our audit of safety and health inspections in the
Pacific Area (Project Number 00JA0004LC000). This audit is the first in a series of
planned reviews to assess the effectiveness of the Postal Service’s process to identify,
track, and prioritize safety and health inspections in the 38,000 postal facilities across
the nation. The objective of this audit was to determine whether required safety and
health inspections were conducted at the facilities in the San Francisco District.

We determined that Postal Service officials did not conduct all required safety and
health inspections at facilities in the San Francisco District. Some officials advised us
that this occurred because they were not aware that the inspections were required. In
addition, officials did not monitor inspection activity to ensure that facilities were
inspected. We noted, however, that all required inspections were completed at facilities
where completion of inspections impacted employee bonuses. Regardless, the lack of
safety and health inspections could allow unsafe and unhealthy conditions to go
uncorrected, thereby exposing the Postal Service to potential Occupational Safety and
Health Administration fines and penalties and, more importantly, exposing employees to
potential injury or sickness. We offered three recommendations to Postal Service
management designed to improve the safety and health inspection program in all
districts. Management agreed with our findings and recommendations and the actions
planned or implemented are responsive to the issues identified in this report.
Management’s comments in their entirety are included as an appendix to this report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Bennie M. Cruz, director, Labor Management,
at (214) 775-9116, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc:	 Suzanne F. Medvidovich
     Suzanne H. Milton
     Samuel M. Pulcrano
     Gerald S. Sanchez
     Jayne E. Schwarz
     Paul S. Tucker
     John R. Gunnels
Review of Safety and Health                            LC-AR-01-004
 Inspections in the Pacific Area



                                   TABLE OF CONTENTS


Executive Summary                                          i

Part I

Introduction

    Background                                            1

    Objective, Scope, and Methodology                     1

    Prior Audit Coverage                                  2


Part II

Audit Results                                             3


   Safety and Health Inspections                          3

   Recommendations                                        4

   Management's Comments                                  4

   Evaluation of Management's Comments                    4


Appendix. Management’s Comments                           6

Review of Safety and Health                                                               LC-AR-01-004
 Inspections in the Pacific Area


                                          EXECUTIVE SUMMARY
Introduction	                        This report presents the results of our audit of safety and
                                     health inspections in the Pacific Area. The objective of this
                                     audit was to determine whether required safety and health
                                     inspections were being conducted at facilities in the San
                                     Francisco District.

Results in Brief	                    We concluded that the Postal Service's safety and health
                                     inspection process for the San Francisco District was not
                                     effective, because the district had not conducted the
                                     required safety and health inspections at the facilities we
                                     reviewed in accordance with the Employee and Labor
                                     Relations Manual. Some officials advised us that they were
                                     not aware of inspection requirements. Also, officials who
                                     were aware of requirements did not monitor the process to
                                     ensure that facilities were inspected. Despite this
                                     reasoning, we noted that all safety and health inspections
                                     were completed at seven facilities where completion of
                                     inspections impacted bonus payments to employees.

                                     Regardless, unsafe and unhealthy conditions could go
                                     uncorrected at uninspected facilities exposing the Postal
                                     Service to the increased risk of Occupational Safety and
                                     Health Administration fines. In this regard, we noted that in
                                     Fiscal Years 1999 and 2000, the Occupational Safety and
                                     Health Administration issued 27 citations for safety and
                                     health violations to the Pacific Area, which includes the San
                                     Francisco District. These citations included violations of
                                     means of egress,1 electrical, sanitation, fire detection and
                                     prevention, and hazard communication standards.

                                     In addition, uninspected facilities could expose employees
                                     to increased risks of injury and sickness, which could
                                     reduce productivity and increase medical costs at a time
                                     when these costs are already a significant issue for the
                                     Postal Service.




1
    Means of egress is an unobstructed exit from any point in a building or structure.



                                                              i
Review of Safety and Health                                                                LC-AR-01-004
 Inspections in the Pacific Area




Summary of 	                       We recommend that management immediately conduct
Recommendations	                   necessary inspections at uninspected facilities, disseminate
                                   information on when inspections are required, and establish
                                   a system to track when inspections are needed and
                                   completed.

Summary of                         Management agreed with the findings and
Management’s                       recommendations and stated that all required inspections
Comments                           for fiscal year 2000 were conducted and the fiscal year 2001
                                   inspection schedule has been disseminated to all facility
                                   officials. Management also stated they sent a
                                   memorandum to district and senior plant managers to
                                   inform facility officials of the annual inspection requirements
                                   stated in the Employee and Labor Relations Manual.
                                   Finally, management stated that a national database was
                                   being developed with the input of headquarters, area, and
                                   district officials to ensure that all facilities receive an annual
                                   health and safety inspection. Management’s comments in
                                   their entirety are included as an appendix to this report.

Overall Evaluation of              Management’s comments are responsive to our findings
Management                         and recommendations.
Comments




                                                      ii
Review of Safety and Health                                                                             LC-AR-01-004
 Inspections in the Pacific Area


                                             INTRODUCTION
Background                         The Postal Service is responsible for protecting employees’
                                   safety and health in 38,000 facilities, of which approximately
                                   21,000 are over 30 years old.2 To accomplish this, the
                                   Postal Service performs periodic safety and health
                                   inspections of all facilities.

                                   The Employee and Labor Relations Manual requires Postal
                                   Service officials to conduct semiannual or annual facility
                                   inspections3 and comply with Occupational Safety and
                                   Health Administration regulations and standards. Area,
                                   district, and collateral duty personnel are required to
                                   conduct inspections using safety and health inspection
                                   checklists, which must be retained for five years.

                                   The Pacific Area has 2,328 facilities requiring safety and
                                   health inspections, 317 of which are in the San Francisco
                                   District. Of the 317 facilities, 16 were over 30 years old.

Objective, Scope, and              Our objective was to determine whether required safety and
Methodology                        health inspections were conducted at facilities in the San
                                   Francisco District. To answer our objective, we reviewed
                                   Postal Service policies and procedures on the safety and
                                   health inspection program. During the audit, we interviewed
                                   Postal Service Headquarters officials in the offices of Health
                                   and Resource Management, Safety Performance
                                   Management, Office of Occupational Safety and Health
                                   Administration Coordination, and Facilities.

                                   We also obtained and reviewed data on Postal Service
                                   owned facilities that were over 30 years old to analyze the
                                   number of facilities in each Postal Service area of operation.
                                   From our analysis, we randomly selected for review the
                                   Pacific Area Operations. Within the Pacific Area, we
                                   reviewed 16 facilities in the San Francisco District because
                                   the district had the highest number of Occupational Safety



2
  Facilities that were over 30 years old were selected because they were similar to the Dallas Downtown Station.
OIG confirmed that unsafe working conditions existed in this facility. Allegations of Unsafe Working Conditions at the
Dallas Downtown Station (report number LM-AR-00-002, March 20, 2000).
3
  Facilities with 100 or more work years require a semiannual inspection. Facilities with less than 100 work years
require an annual inspection.




                                                          1
Review of Safety and Health                                                                      LC-AR-01-004
 Inspections in the Pacific Area


                                   and Health violations. Because we chose only one area for
                                   review and then judgmentally selected one district, none of
                                   the results from this review are projectable to other districts
                                   or areas.

                                   In addition, we interviewed the Pacific Area Human
                                   Resource safety analyst, the San Francisco District
                                   manager, Human Resources manager, acting Labor
                                   Relations manager, manager of Maintenance, manager of
                                   Administrative Services, the Safety and Health Program
                                   manager, and three safety specialists. We also reviewed
                                   safety and health inspection files for fiscal years (FYs) 1998,
                                   1999, and 2000 for all 16 San Francisco District facilities
                                   that were over 30 years old.

                                   We performed our audit from August 2000 through
                                   March 2001, in accordance with generally accepted
                                   government auditing standards, and reviewed internal
                                   controls as were considered necessary to fulfill the audit
                                   objective. We discussed the conclusions and observations
                                   with appropriate management officials and included their
                                   comments, where appropriate.

Prior Audit Coverage	              The audit was self initiated based on a prior review, which
                                   identified significant safety and health issues at a Postal
                                   Service facility in Dallas, Texas.4




4
 Allegations of Unsafe Working Conditions at the Dallas Downtown Station, (report number LM-AR-00-002,
March 20, 2000).



                                                       2
Review of Safety and Health                                                               LC-AR-01-004
 Inspections in the Pacific Area


                                          AUDIT RESULTS
Safety and Health                  The Postal Service's safety and health inspection process for
Inspections                        the San Francisco District was not effective, because the
                                   district did not conduct all required safety and health
                                   inspections in accordance with the Employee and Labor
                                   Relations Manual at the facilities we reviewed. Responsible
                                   facility officials advised us that they were not all aware of
                                   inspection requirements. Furthermore, area management did
                                   not monitor inspection activity to ensure that facilities were
                                   inspected. Regardless, unsafe and unhealthy conditions could
                                   go uncorrected at uninspected facilities exposing the Postal
                                   Service to the increased risk of Occupational Safety and
                                   Health Administration fines.

                                   We reviewed safety and health inspection records for
                                   16 facilities and found that 6 of the facilities did not have any
                                   inspection checklists for FYs 1998, 1999, and 2000. During
                                   the same period, the remaining ten facilities had some, but not
                                   all inspection checklists. In total, the 16 facilities required
                                   63 inspection lists. However, 37 checklists were not on file.

                                   We discussed the missing documentation with the district
                                   safety and health manager who inquired with facility officials to
                                   obtain the information. The manager informed us that the
                                   inspection checklists were not available and concluded the
                                   inspections were not conducted. We contacted officials for the
                                   six facilities with no inspection checklists and confirmed that
                                   required inspections were not conducted. In fact, we found
                                   that officials did not conduct inspections at these six facilities in
                                   the past five years. Facility officials responsible for conducting
                                   the inspections stated that the inspections were not done
                                   because they were unaware of inspection requirements.

                                   We also found that the area Human Resources manager did
                                   not monitor safety and health inspections to ensure they were
                                   conducted. Section 824 of the Employee and Labor Relations
                                   Manual and the Executive’s and Manager’s Safety and
                                   Compliance Guide require the area Human Resources
                                   manager to monitor district safety and health inspections.

                                   An area Human Resources official informed us that he did not
                                   know if other districts in the Pacific Area had completed
                                   required inspections and stated that there were no internal
                                   controls to ensure districts conducted all inspections.



                                                     3
Review of Safety and Health                                                            LC-AR-01-004
 Inspections in the Pacific Area


                                   Additionally, he stated that area and district officials focused
                                   their resources on safety and health inspections at seven
                                   facilities not covered in our review. The seven facilities were
                                   inspected because they were considered in calculating Postal
                                   Service managers' bonus payments under the Economic Value
                                   Added Variable Pay Program. We also confirmed that internal
                                   controls, such as a system to identify, track, and prioritize
                                   safety and health inspections, had not been established. Such
                                   a system would enable Postal Service officials to track when
                                   inspections are needed and ensure they are completed.

                                   Safety and health inspections are required to identify
                                   operational and facility deficiencies that may cause employee
                                   accidents or injuries. Because all safety and health
                                   inspections were not conducted, unsafe conditions could go
                                   undetected or unabated, potentially exposing employees to
                                   injury and increasing the likelihood of Occupational Safety and
                                   Health Administration citations and fines. In FY 1999 and
                                   2000, the Occupational Safety and Health and Administration
                                   issued 27 citations for safety and health violations to the
                                   Pacific Area. The violations resulted in $74,150 in proposed
                                   fines, which were settled for $14,763. Of the 27 citations
                                   issued, one San Francisco District facility included in the
                                   incentive payment calculation received 8 citations. These
                                   included citations for violations of means of egress, electrical,
                                   sanitation, fire detection and prevention, and hazard
                                   communication standards. None of the 16 facilities in our
                                   sample were issued citations.

Recommendations                    To improve the safety and health inspection program in all
                                   districts, we recommend that the vice president, Pacific Area
                                   Operations:

                                   1. Identify facilities that have not been inspected and
                                      immediately require that inspections be conducted.

Management’s                       Management agreed with the recommendation and informed
Comments                           us that all required inspections for FY 2000 were conducted
                                   and the FY 2001 inspection schedule has been disseminated
                                   to all facility officials.

Evaluation of                      Management’s comments are responsive to our findings and
Management’s                       recommendations.
Comments




                                                    4
Review of Safety and Health                                                         LC-AR-01-004
 Inspections in the Pacific Area




Recommendation                     2. Disseminate inspection information on when inspections
                                      are required to responsible facility officials.

Management’s                       Management agreed with the recommendation and issued a
Comments                           memorandum to district and senior plant managers informing
                                   them of the inspection requirements as cited in the Employee
                                   and Labor Relations Manual.

Evaluation of                      Management’s comments are responsive to our findings and
Management’s                       recommendations.
Comments

Recommendation                     3. Require that the area Human Resources manager establish
                                      a system to track when inspections are needed and ensure
                                      they are completed.

Management’s                       Management agreed with the recommendation and is
Comments                           developing a national database with the input of headquarters,
                                   area, and district officials to monitor and ensure that
                                   inspections are completed.

Evaluation of                      Management’s comments are responsive to our findings and
Management’s                       recommendations.
Comments




                                                   5
Review of Safety and Health                            LC-AR-01-004
 Inspections in the Pacific Area


                     APPENDIX. MANAGEMENT’S COMMENTS




                                    6
Review of Safety and Health            LC-AR-01-004
 Inspections in the Pacific Area




                                   7
Review of Safety and Health            LC-AR-01-004
 Inspections in the Pacific Area




                                   8
Review of Safety and Health            LC-AR-01-004
 Inspections in the Pacific Area




                                   9
Review of Safety and Health             LC-AR-01-004
 Inspections in the Pacific Area




                                   10
Review of Safety and Health             LC-AR-01-004
 Inspections in the Pacific Area




                                   11
Review of Safety and Health             LC-AR-01-004
 Inspections in the Pacific Area




                                   12
Review of Safety and Health             LC-AR-01-004
 Inspections in the Pacific Area




                                   13
Review of Safety and Health             LC-AR-01-004
 Inspections in the Pacific Area




                                   14
Review of Safety and Health             LC-AR-01-004
 Inspections in the Pacific Area




                                   15
Review of Safety and Health             LC-AR-01-004
 Inspections in the Pacific Area




                                   16
